                          Peace Corps
                          Office of Inspector General




Peace Corps office in Addis Ababa, Ethiopia




              Final Country Program Evaluation Report:
                        Peace Corps/Ethiopia
                             IG-11-02-E

                                               January 2011
                               EXECUTIVE SUMMARY

Over 3,000 Peace Corps Volunteers have served the people of Ethiopia since the program was
first launched in 1962. The program has closed two times since then, but reopened in 2007 with
Volunteer assignments focusing on community health and prevention of HIV/AIDS. Peace
Corps/Ethiopia (hereafter referred to as “the post”) plans to contribute to Peace Corps’ growth by
placing up to 240 Volunteers in Ethiopia by the end of 2012. At the onset of this evaluation, 76
Health-HIV/AIDS Volunteers were serving in Ethiopia. The post plans to achieve its growth
goal by establishing two new project sectors, environment and education. The first group of 33
environment trainees arrived in September 2010; 35 education trainees are set to arrive in June
2011.

The post is coordinating well with host country and project partners, and its Volunteer project
goals are aligned with host country development priorities. The post has made progress in
further establishing its health and HIV/AIDS project sector and is building relationships with
partner organizations by placing Volunteers in health centers, community based organizations,
and ministry of health regional offices. However, the Peace Corps is not well-known in Ethiopia
as a result of interruptions in the program from 1999 through 2007. The country director (CD)
has directed programming staff members to increase and expand community meetings during
Volunteer site development to focus more on Peace Corps’ development strategy and the role of
counterparts and Volunteer in the community.

Prior to the arrival of the current CD, headquarters and post staff described the leadership at the
post as weak mostly because of poor communication. Communication and staff morale have
clearly improved since the arrival of the current CD in December 2008. Volunteers are well
supported by programming, training, and administrative staff members. They are particularly
satisfied with the care they receive from medical staff members. However, we recommend
additional English training for host national staff members so they can respond more effectively
to Volunteer support needs or in the event of an emergency. Volunteer housing costs have been
in excess of $100,000 since re-entry in 2007. We recommend that the CD work with the
ministry of health and other partners to ensure that operating agreements clearly detail whether
the post is responsible to provide Volunteer housing, or whether its partners will provide
Volunteer housing as a host country contribution.

The post has focused its energies on quality improvements to its Volunteer training programs.
The addition of community-based training in 2009—to include training outside the classroom
while living with a host family—has better prepared Volunteers to integrate into their
communities. As a result, Volunteers reported that they are working more effectively with
counterparts and community members and their language skills have improved. Programming
staff have incorporated Volunteer and staff feedback regarding training success, with expanded
diversity training and revisions in culture and language materials. However, training staff should
engage Volunteers in a dialogue with trainees in safety and security training sessions so they can
effectively relate safety issues from a Volunteer perspective and take part in suggesting practical
response strategies.


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                         i
During our visit we determined that a number of issues and recommendations discussed in
agency re-entry assessments and Internal Management Assessment (IMA) and Peace Corps
safety and security officer (PCSSO) trip reports remain unaddressed. Addressing these issues is
particularly important given the post’s plans for growth, including expansion to new project
sectors and plans for Volunteer placements in more remote areas of the country. A complete
country risk assessment has not been conducted for the post since its re-entry in 2007; the CD is
mandated by Peace Corps Manual Section 270 to establish procedures for responding to security
incidents, and we found a procedure for effectively responding to sexual assaults should be
finalized immediately. We found an urgent need to address weaknesses in the communication
system between post and Volunteers. Volunteers and staff lack reliable, real time
communication methods to send and receive notifications in case of an emergency. The post
also needs to update its Emergency Action Plan, test it annually, and ensure all Volunteers are
familiar with it as well as the consolidation points. There is inconsistent recording of incidents
in the Crime Incident Reporting System and we recommend these inconsistencies be addressed.
We also recommend that the CD ensure Volunteers are adequately trained to report all safety and
security incidents to post staff.

The post has effectively outlined the resources necessary to support planned growth in its 2011-
2013 planning and budget requests. However, we found that the post has faced challenges
effectively balancing the planning and budgeting of agency appropriated funds with the
President’s Emergency Plan for AIDS Relief (PEPFAR) funding. This problem may be
exacerbated by the agency's planning and budget process and the post’s unique budget scenario
which necessitates additional guidance from headquarters. We recommend that the post
coordinate with headquarters to effectively spend down PEPFAR funds authorized and unused
from prior year requests.

Our report contains 19 recommendations intended to strengthen the post's programming
operations and correct the deficiencies detailed in the accompanying report.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                      ii
                                                                    Table of Contents


EXECUTIVE SUMMARY ........................................................................................................... I

HOST COUNTRY BACKGROUND .......................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND ........................................................................ 1

EVALUATION RESULTS .......................................................................................................... 3

Programming .............................................................................................................................................................3

Training ........................................................................................................................................... 7

Volunteer Support ........................................................................................................................... 9

Management Controls ................................................................................................................... 16

OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................... 23

INTERVIEWS CONDUCTED .................................................................................................. 24

LIST OF RECOMMENDATIONS ........................................................................................... 28

APPENDIX A: MANAGEMENT’S RESPONSE TOTHE PRELIMINARY REPORT

APPENDIX B: OIG COMMENTS

APPENDIX C: COUNTRY PROGRAM EVALUATION COMPLETION AND OIG
CONTACT
                         HOST COUNTRY BACKGROUND

The nation of Ethiopia is located in East Africa and surrounded by the countries of Eritrea,
Djibouti, Somalia, Kenya, and Sudan. The population of Ethiopia is approximately 80 million.
Besides a short Italian occupation from 1936-41, Ethiopia has maintained its independence from
colonial rule. In 1994, Ethiopia transitioned from a socialist regime and adopted a democratic
constitution. In 1995, its first multiparty elections were held.

According to the United Nation’s 2009 “Human Development Report” Ethiopia is one of the
most impoverished nations in the world, ranking 171 out of 182 indexed nations. An estimated
85 percent of its labor force is agricultural, but land is state-owned, which is a barrier to
entrepreneurship. The inflation rate has been over 40 percent the past two years as a result of the
global economic downturn and soaring commodity prices.

Ethiopians are at high risk for contraction of major infectious diseases such as malaria, hepatitis,
and skin infections. The HIV/AIDS adult prevalence rate is 2.3 percent, principally in urban
areas, as compared to 0.2 percent throughout North Africa and the Middle East, and over 5
percent in Sub-Saharan Africa, the region of the world most affected by HIV/AIDS. Cell phone
and Internet usage are quite low, estimated at 3.2 million and one half million, respectively. The
agriculture sector suffers from frequent water shortages and poor cultivation practices, which
have led to widespread deforestation, overgrazing, and soil erosion, among other environmental
conditions. Although access to education has improved in recent years, the quality of education
still needs to be improved, in particular English language instruction.



                 PEACE CORPS PROGRAM BACKGROUND

Over 3,000 Volunteers have served in Ethiopia since 1962 in the areas of education, community
development, business development, agriculture and health. Peace Corps first entered Ethiopia
in 1962, but closed in 1977 due to political instability. The post re-opened from 1995-1999, but
conflict with its northern neighbor Eritrea caused the post to close again. In 2006, the
Government of Ethiopia and the U.S. Ambassador signaled strong support for the placement of
health sector Volunteers to strengthen community-based HIV/AIDS prevention, care and
treatment activities as part of PEPFAR. Subsequently, a new country agreement was negotiated
and the post re-entered the country in 2007. At the onset of this evaluation there were 76
Volunteers serving in Ethiopia.

After the program closed for the second time in 1999, the Peace Corps periodically reviewed the
prospects for renewed operations in Ethiopia and a series of re-entry assessments were
performed by senior management in 2002, 2004, and 2006. These re-entry assessments
addressed four areas: administration, programming and training, medical services and safety and
security. The 2006 assessment recommended a health sector be added with Volunteers working



Final Country Program Evaluation Report: Peace Corps/Ethiopia                                      1
on PEPFAR funded HIV/AIDS programs. The first Health-HIV/AIDS sector Volunteers arrived
in 2007.

•   Health – HIV/AIDS
Since re-entry in 2007, three Health-HIV/AIDS sector (hereafter referred to as health) Volunteer
groups have sworn in and work in support of three PEPFAR objectives: 1) Prevention, Basic
Health Care and Support; 2) Services for Orphans and Vulnerable Children; and 3) People
Living with HIV/AIDS. Volunteers are assigned to work at health facilities, non-governmental
organizations (NGOs), and community based organizations (CBOs) to help build service
networks, strengthen organizational capacity, and improve prevention, care and support services.
The post’s health sector projects target vulnerable and at-risk populations including youth,
pregnant women, commercial sex workers, people living with HIV/AIDS, and orphans and
vulnerable children. Volunteers also provide capacity building assistance to organizations,
service providers and individuals.

Since re-entry, funding received by PC/Ethiopia under the PEPFAR has been the primary source
of the post’s operational budget. The post was re-opened with an approved plan to fund its
operational and start-up costs using 75 percent PEPFAR funding and 25 percent agency-
appropriated funds. Post was funded with an estimated $14 million from fiscal years (FYs) 2007
through 2010. About $3.5 million of these funds was appropriated to Peace Corps. The
remaining estimated $10.5 million was appropriated to PEPFAR, and subsequently transferred to
Peace Corps from the Department of State for obligation by PC/Ethiopia. The post’s PEPFAR
funding for fiscal years 2007 through 2009 was used to recruit and train staff, purchase
equipment, supplies, and post vehicles, and to develop Volunteer sites and implement Volunteer
trainings, among other things.

An internal management assessment (IMA) team of senior managers visited the post to assess its
operations in October 2008. The IMA team reported that more than 30 headquarters staff
traveled to post to provide additional support from April 2007 through September 2008. Also,
five visits were conducted by a Peace Corps safety and security officer to assess the post’s safety
and security program between July 2007 and May 2010.

The post plans to expand from 76 to approximately 240 Volunteers by the end of FY 2012 by
adding two new sectors, conservation and natural resource management (hereinafter referred to
as environment) and education. These two sectors are top development priorities for the
government of Ethiopia. Project plans call for environment sector Volunteers to address land
degradation by teaching alternative agricultural practices. Education sector Volunteers will
provide technical training to build Ethiopian teachers’ capacity and model English-teaching
ability and techniques. Thirty-three environment sector trainees arrived in September 2010; 35
education and 35 health sector trainees will arrive in June 2011.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                     2
                                EVALUATION RESULTS

The evaluation reviewed the current Peace Corps program in Ethiopia, with a focus on training
and support provided to Volunteers, overall management of the post, and support provided to the
post by headquarters offices and region management. We paid particular attention to the extent
to which agency re-entry guidance was applied to re-establishing the post, as well as the post’s
use of PEPFAR funds. Please see the Scope, Purpose and Methodology section at the end of this
report for further information on our review.

PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

   •   The coordination between the Peace Corps and the host country in determining
       development priorities and Peace Corps program areas;
   •   Whether post is meeting its project objectives;
   •   Counterpart selection and quality of counterpart relationships with Volunteers;
   •   Site development policies and practices.

A new country agreement signed between the Peace Corps and the government of Ethiopia, and
an operating agreement signed between Peace Corps and the Ministry of Health in October 2007
are relevant to host country development priorities and health sector programming. We found
that in general, the post is coordinating effectively with host country and project partners. Post is
also coordinating with other United States government agencies in the field. The CD, AO and
programming staff are members of the PEPFAR Executive Council and Collaborative Teams,
and serve on the Prevention, Care and Support USG Technical Working Groups. The post
finalized its health project plan in May 2010 and has used its project framework and PEPFAR
guiding documents to guide its programming and training in the health sector and to meet project
objectives.

We found that the post has developed practices for placing Volunteers at sites that aligns with
agency site development guidance, and Volunteers are generally satisfied with their placements.
When asked, “How satisfied are you with your site?” Eighteen out of 20 Volunteers responded
they were “satisfied,” “above average” or “very satisfied.” Volunteers rated relationships with
their counterparts favorably, and all 20 Volunteers we interviewed confirmed they have at least
one counterpart in their community. We confirmed that post staff was tracking Volunteer site
histories, which consist of Volunteer request forms and community contact information; site
assessments completed by programming, medical or safety staff; and safety and security incident
information for each site. Accessible site histories will likely help ease the site development
burden as new Volunteer groups follow-up Volunteers at previously established sites.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                      3
PC/Ethiopia is working to improve Volunteer placements

Programming staff members are increasingly placing Volunteers within partner implementing
organizations such as health centers and community-based organizations with a goal of
increasing effectiveness. Previously, Volunteers were placed with the oversight and
coordinating body for the Ministry of Health, the HIV/AIDS Prevention and Control Office
(HAPCO). According to post management and Africa Region management, Volunteers will
have more opportunities to assist in the implementation of community-based prevention, care
and support because they will be placed directly within community-based organizations and
hospital centers working in HIV/AIDS. Programming staff and Volunteers will continue to
partner with HAPCO at the regional level by coordinating Volunteer activities with the Ministry,
HAPCO, and implementing organizations as part of the national effort to target vulnerable and
at-risk populations.

Programming staff did not include host country government and project partner stakeholders
in program advisory committee meetings

Program Advisory Committee (PAC) meetings conducted by post staff has only been attended
by Peace Corps staff and Volunteers. According to Peace Corps’ Programming and Training
Guidance: Introduction and Overview, PACs should also include the participation of ministry-
level and local partners. This guidance also states:

       The input of PACs is critical to maximize the sustainability of Volunteer work, to confirm project support
       from the government, and to define and communicate an optimum role for Volunteers in collaboration with
       other organizations addressing the issue.

The importance of regular, substantive communication with ministry partners is underscored in
Peace Corps’ Characteristics and Strategies of a High Performing Post: Post Management
Resource Guide, Part 6.4, “Communication with Host-Country Government and Partner
Agencies,” which states:

       . . . There is much value to setting up a regular communications network with the counterpart
       agency (ministry, NGO, or community organization), so that consultation, exchange, and
       understanding take place on a steady basis, outside of the realm of special problems and crises ….
       It is also both a protection and a support for Volunteers in the field who, if their supervising
       organizations are meeting and communicating on a regular basis, will receive much more coherent
       and consistent direction concerning the project’s objectives and activities.

According to post staff, the PAC’s primary purpose has been to provide a forum for staff and
Volunteers to address programming, training and support issues. Programming staff described
its intention to include more host country government and partner stakeholders in these meetings
in the near future.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                                   4
               We recommend:

               1. That programming staff include host country government and project
                  partners in program advisory committee meetings with Volunteers and
                  programming staff.


PC/Ethiopia has not pursued an option in the operating agreement that encourages its
Ministry partner to contribute to Volunteer housing costs

An operating agreement signed in October 2007 between Peace Corps and the Ministry of
Health, “encourages the ministry to make available housing for Volunteers, on a gratis basis”
and, “if housing is not available at the Volunteer’s site, the ministry may elect to contribute a
housing stipend, through the post, to cover housing needs rented by the Volunteer from a local
landlord.” This agreement does not articulate which party—the post or its health partner—is
responsible to provide housing future Volunteers beyond 2008.

The post has paid an estimated $112,500 for Volunteer housing since the post reopened. When
the project was launched the post made PEPFAR funds available in the amount of $45,000 for
the 2007-2008 period to cover Volunteer housing, but the operating agreement contains no
specific language for providing housing in subsequent years. The administrative officer (AO)
reported that in 2010 nearly $46,000 will be spent to house 71 Volunteers, using approximately
$35,000 in PEPFAR funds and approximately $11,000 in appropriated funds. The post will
continue to pay for all Volunteer housing if action is not taken to clarify this agreement. This
clarification will be particularly important as the post enters into new agreements with its
environment and education sector partners.

Securing housing for Volunteers was cited as potentially problematic in the 2004 re-entry
assessment. This assessment noted that local partner agencies did not typically provide housing
to volunteers, and recommended that this issue be explored further by the country team at re-
entry. According to regional management, the previous CD, who served from January 2007 to
November 2008, did not pursue the option of having the Ministry provide Volunteer housing
during his tenure. The current CD reported that the post was planning to revise and redefine the
HIV/Health program to broaden its mandate, and indicated that at that time it would revisit the
issue of housing.

During our visit, we raised the housing support topic in interviews with new sector stakeholders.
The director of the Ministry of Agriculture Directorate and a representative of United States
Agency for International Development acknowledged that as partners they are expected to
support the costs of Volunteer housing as a host country contribution. However, at the time of
our report, these responsibilities were not yet finalized in writing.

In 2009, the Office of General Counsel issued a template called “Memorandum of Understanding
between Peace Corps and Partnering Organization” available to CDs. It outlines the roles and
responsibilities of Peace Corps and partnering organizations. The housing section contains a
proposed provision that outlines responsibilities when a partnering organization provides housing


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                       5
for Volunteers. This memorandum may help to clarify whether the post or its partners are
responsible to provide housing for future Volunteers.

               We recommend:

               2. That prior to its next trainee input, PC/Ethiopia secure an agreement
                  with its health sector partners which clearly states whether the post or its
                  health partner assumes responsibility for Volunteer housing.

               3. That PC/Ethiopia negotiate and secure an agreement, which clearly states
                  whether or not environment and education partners are to provide
                  Volunteer housing as a host country contribution.


Programming staff report increased efforts to educate communities about Peace Corps

Volunteers are serving Ethiopian communities for the first time since 1999, and are performing
new activities as health sector Volunteers. While visiting Volunteers in their communities, we
observed that Volunteers were not quickly recognized by members of their community.
Volunteers told us they had to repeatedly reintroduce themselves to the same members of their
communities especially after being temporarily away from their sites. Despite integration
challenges, Volunteers exhibited motivation and pragmatic patience and they recognize their
efforts are valuable for the next Volunteers to arrive in their community when their service is
completed.

The CD identified representation and advocacy as a top priority in the FY 2011-2013 Integrated
Program and Budget System (IPBS), with goals to educate younger Ethiopians about Peace
Corps, better prepare communities to receive and utilize Volunteers, and highlight the post’s
achievements in the local media. The CD and programming staff reported increased efforts to
educate communities about the mission of the Peace Corps and the role of the Volunteer. As part
of their visits to develop sites, programming, medical, and safety and security staff conduct
informational meetings with local government and partner agency stakeholders. Informational
materials are distributed in both English and Amharic. Based on the post’s attention to this issue
and actions taken, we are not making a recommendation, but we encourage staff to monitor
progress made addressing this issue.

Programming staff does not orient counterparts before they attend Pre-Service Training

Counterparts often did not fully understand their role or the role of the Volunteer in the
community when they were invited to attend Pre-Service Training (PST). The CD and
programming staff described the process of exploring and selecting potential Volunteer sites as
resource-intensive and time consuming, frequently leaving insufficient time for orientation of
community members. As a result, educating communities about the roles of the Volunteer and
counterpart, and the mission of Peace Corps, had been limited and incomplete during the initial
inputs of Volunteer groups following the 2007 re-entry. We reviewed post’s written site
development policy, examining the community surveys, and site and housing checklists, and
determined that a discussion of the role of the counterpart is lacking.


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                     6
According to the Volunteer Safety Council, counterpart orientation includes such things as Peace
Corps history and the role of the Volunteer and the counterpart. Moreover, the Office of Safety
and Security’s “Site Development Procedural Guidance” states, “Peace Corps should provide all
designated host country counterparts with a counterpart orientation” prior to placement of the
Volunteer at a site.

To address this shortcoming, the CD has specifically designated associate Peace Corps directors
(APCDs) responsibility for site development. More specifically, programming staff will develop
Volunteer, counterpart, and supervisor position descriptions with potential counterparts and
supervisors in the community, prior to Volunteer site placement. This should help ensure that
counterparts understand their role and the role of the Volunteer in the community when they
attend PST.

               We recommend:

               4. That PC/Ethiopia include steps in its site development plan to better
                  ensure that counterparts understand their role in supporting the
                  Volunteer and the Volunteers’ role in the community.

TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:

   •   Training adequacy;
   •   Planning and development of the training life cycle;
   •   Staffing and related budget.

Programming and training staff have effectively used the training, design, and evaluation (TDE)
process to identify the knowledge, skills and attitudes needed to adequately train Volunteers to
do their jobs effectively. Core, technical (or sector), language, safety and security and health
trainings are provided at appropriate points in Volunteers’ service. The training staff, the AO,
and CD verified that their training budget is sufficient.

Training staff are using Volunteer feedback to improve training and materials

Staff and trainee feedback is routinely collected both during and after trainings and used to
improve training. Volunteers provided many examples of improvements made to training which
was based on feedback solicited by staff both during and after trainings. However, we found
additional improvements could be made to safety and security training.

We asked Volunteers to rate training based on the following scale: (1) ineffective; (2) below
average effective; (3) moderately effective; (4) above average effective; (5) very effective.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                      7
Table 1: Volunteer Perceptions of Training Effectiveness
                                   Average rating
 Pre-Service Training
  Language                         3.35
  Culture                          2.75
  Safety & Security                3.55
  Health                           4.4
  Technical                        3.0
 Three month In-Service Training 4.2
 12-month In-Service Training      3.4
Source: OIG Volunteer interviews.
.
Volunteers rated all but cross-cultural training an average rating of three or higher. Forty percent
(eight out of 20) felt cultural training was “below average effective” or “ineffective.” Post staff
was aware that the December 2009 trainee group was dissatisfied with the cross-cultural training
they received. In March 2010, in response to feedback indicating a need for improved culture
training, Volunteers and staff attended diversity training. In OIG interviews, Volunteers said the
diversity training helped address topics not covered in their PST culture training. Training and
programming staff reported they now had a better understanding of trainees’ frustrations and
staff felt more capable of providing trainees better support and training. The language and cross
cultural coordinator is developing an Ethiopian culture handbook with input provided by
Volunteers.

Additional improvements made to training include:

    •   Language learning materials were recently revised by the language and cross cultural
        coordinator with input from Volunteers. Volunteers and the sub-regional programming
        and training coordinator reported that the changes are useful for self-directed learning,
        both to help sound out words and learn the Amharic alphabet.

    •   Technical training was rated a “moderately effective” on average, because as Volunteers
        noted in our interviews, technical trainers lacked in-depth knowledge of the material
        covered. To address this issue, the CD assigned the responsibility for technical training
        to APCDs, and tasked one APCD to develop a health technical training manual before the
        next health training group arrives in June 2011.

    •   Starting in 2009, the post added community-based training to its PST program to include
        training outside the classroom, while living with a host family. Volunteers rated their
        living accommodations with host families favorably. Programming and training staff
        reported they observed trainees’ increased motivation levels as a result of living with a
        host family while attending training as compared to prior training groups who did not live
        with a host family during PST.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                       8
Pre-service safety and security training did not prepare Volunteers for uncomfortable or
unsafe situations

During interviews with Volunteers we learned that PST sessions did not cover some of the issues
they experienced such as having had rocks thrown at them or having been inappropriately
touched on public transportation. Volunteers did not feel as though they had been sufficiently
warned about such incidents nor had they been provided strategies for how to respond to them.
Volunteers suggested that they would be better prepared to respond to safety and security
incidents if currently serving Volunteers had facilitated a session at PST about these types of
incidents and how to respond to them. The CD agreed that these sessions would enhance safety
and security training, and discussed plans to invite Volunteers to share their safety and security-
related experiences with future trainees.

               We recommend:

               5. That Volunteer safety and security training presentations include a
                  review of common safety and security incidents experienced by
                  Volunteers and strategies for how best to avoid or respond to such
                  incidents.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including staff-Volunteer communications; project and status report feedback; medical support;
safety and security support including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP), the handling of crime incidents; and the adequacy of the Volunteer living allowance.
In reviewing overall staff support, living allowance, medical support, and Volunteer whereabouts
policy, OIG found no significant areas of concern that would warrant action by the post.

Volunteers are satisfied with support from staff including post leadership, program, medical,
safety and security, and administrative staff

During our interviews, Volunteers described the availability and open-door policies of post staff,
which has built staff-Volunteer trust and facilitated Volunteers’ adjustment to the Ethiopian
culture and living and working in Ethiopia. Eighteen of 20 Volunteers reported that in-country
staff were moderately to very effective in helping them adjust to life as a Volunteer. See
additional detail outlined in the table below.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                     9
Table 2: Volunteer Perceptions of Staff Support
                             Average Score for
 Area of Support             Support
 Country Director            4.73
 Programming a               3.57
 Training Manager            4.45
 Safety and Security
 Coordinator                 3.88
          b
 Medical                     4.25
 Administrative c            4.04
Source: OIG interview of Volunteers.
a. Programming was derived by averaging APCD and Program Assistant scores.
b. Medical was derived from the collective PCMO score.
c. Administrative was derived from the AO and Financial Assistants scores.



All 20 Volunteers we interviewed responded favorably when asked about the level of support
provided by the training manager. In particular, Volunteers praised his openness to feedback
about the training program and his effective planning skills. Sixteen Volunteers responded
favorably when asked about the level of support provided by the safety and security coordinator.
All 20 Volunteers rated the level of support received from Peace Corps Medical Officers
(PCMOs) as “average” or higher. In addition, Volunteers responded favorably when asked about
the work of the AO and financial assistants. Several noted the AO had provided them with
practical advice during training in regard to slow reimbursement processing due to Ethiopia’s
antiquated banking practices.

The host country staff’s English language skills limits their ability to respond to Volunteer
support needs

We observed some limitations in the staffs’ English proficiency during our visit that raised
concerns as to whether staff members would correctly record information in an emergency
situation. Volunteers also reported difficulties communicating the need for information or
support to non-native English speaking staff members.

The PCSSO initiated a communications test of the EAP that consisted of staff members sending
a message to all PC/Ethiopia Volunteers requesting that they contact the Peace Corps office in
Addis Ababa immediately. The staff was directed to ask the Volunteers to cite their
consolidation point and which items to bring with them when a consolidation was initiated, to
correct any Volunteer that provided misinformation, and to make a note in the Volunteer
Information Database Application (VIDA) of their conversation. The purpose of the note was to
determine how much time elapsed to reach all Volunteers, and what percent of Volunteers were
familiar with consolidation instructions. Although all staff members acknowledged their
understanding of this request, they did not record all the required information and only partial
results were available at the completion of the communications test.

Seven of 20 Volunteers reported difficulties communicating needs for information or support to
non-native English speaking staff at post. The Volunteers described attempts to seek project


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                   10
information or help in addressing issues with their landlords but said they often experienced
communication barriers when sending in a request in writing, by telephone, and in-person
conversations. Volunteers noted in our interviews that they reached out to native English
speakers only after attempts to communicate with local staff resulted in a limited response.
Consequently, U.S. direct hire staff field the bulk of Volunteer inquiries when the host national
staff are unable to effectively respond. To illustrate, Volunteers cited the following:

       “…Email responses are half a sentence response to detailed questions.”

       “[His/her] English isn't a barrier, reading ability is good but verbal interaction is more limited.”

       “Written communications from host country national staff are often unclear to me.”

       “American staff is easier to communicate with.”

The CD previously identified the host country staffs’ need for additional English language
training in the FY 2011-2013 IPBS, and distributed a sign-up sheet for English instruction to all
post staff in March 2010. According to the CD, nearly all host country staff members plan to
attend English courses designed at three proficiency levels by the end of this fiscal year.

                We recommend:

                6. That the post provide additional English language training to host
                   country staff so they may more effectively respond to Volunteer support
                   needs, or in the event of an emergency.

                7. That the post establish minimum English language requirements for
                   current and future staff.


Volunteer location, contact, and program-related information is not systematically collected,
tracked, and stored for quick retrieval in case of emergency

In a review of sampled Volunteer information maintained at post, we determined that Volunteer
site locator forms, site histories, site visit reports, Volunteer contact and whereabouts
information was incomplete and stored in different locations in the office—which could impede
the post staffs’ ability to locate Volunteers in case of emergency.

The importance of up-to-date site locator forms, which include an accurate map to the
Volunteer’s site and house, and nearest clinic, are discussed in Peace Corps’ Characteristics and
Strategies of a High Performing Post. We used site locator forms to try and locate Volunteers
while conducting field visits. Only two of 15 site locator forms we reviewed contained maps to
Volunteer sites with sufficient detail to locate the Volunteers. In addition, the site locator forms
did not include information on health clinics in close proximity to Volunteer sites.

Characteristics and Strategies of a High Performing Post contains additional guidance for
effective organization of Volunteer information for quick retrieval. The guidance states that files
such as site locator forms, site histories and site visit reports should be systematically organized


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                                 11
and accessible to all relevant staff. The organization of this information is particularly important
to allow any Peace Corps staff member or other authorized individual to access it quickly in
response to emergency situations. To be sure the Volunteer can be reached should an emergency
arise, PCM section 270 “Volunteer/trainee Safety and Security”, states, “Each post must
establish a system to collect contact and whereabouts information from Volunteers when they are
away from their communities for personal reasons, annual leave, or for official work related
business.”

We found that programming and safety and security staff maintained paper and electronic files
for each Volunteer, but the files we reviewed were not stored in a centralized location, and were
incomplete. For example,

   •   Paper site locator forms were stored in a program assistant’s office, and a few were
       missing or contained outdated information;
   •   Paper site histories were stored in the office of an APCD;
   •   Only 20 out of 31 electronic site visit records were stored in VIDA. An APCD provided
       written summaries of site visits for all but two Volunteers in the sample upon request.
   •   Staff did not consistently enter Volunteer whereabouts records into VIDA. The
       whereabouts of all Volunteers were not up-to-date when a communications test was
       conducted during the OIG field visit.
Programming and medical staff recognized that site visit reporting in particular could be more
systematically tracked. Staff from both offices acknowledged that not all site visits were
recorded and that others were missing the dates of visit. The CD stated that staff had recently
organized existing Volunteer information in an effort to correct these deficiencies. She agreed
that Volunteer information could be better tracked and organized for quick retrieval in case of
emergency.

                We recommend:

               8. That post maintain complete Volunteer information, which includes up to
                  date, reliable, accessible site locator forms, site histories, site visit reports
                  and Volunteer whereabouts information in case of emergency.


PC/Ethiopia has not finalized a process for responding to sexual assault incidents

We asked post to provide us with a copy of its procedures for effectively responding to sexual
assault incidents. We found that the PCMOs and the CD lacked knowledge of legal
requirements and procedures to respond to sexual assault. The CD and PCMOs were unsure of
the Ethiopian laws that dictate whether a PCMO may collect evidence while conducting a
physical examination of the victim.

Peace Corps’ Medical Technical Guideline 540 for Management of Sexual Assault includes
guidance for conducting physical examinations of victims of sexual assault and for collecting
forensic evidence useful during legal proceedings. According to the guidance, “PCMOs and



Final Country Program Evaluation Report: Peace Corps/Ethiopia                                     12
CDs should be familiar with local laws and procedures and should adapt U.S. procedures to
conform to local ones.”

According to PCM 270, the CD is responsible for establishing procedures for responding to
security incidents and for ensuring that necessary follow-up actions are taken, especially if a
criminal investigation and prosecution ensues.

Fortunately, no rape incident has been reported by a Volunteer since re-entry in 2007. The status
of post’s established rape response protocol was reported as “incomplete” by a PCSSO as early
as October 2007. In discussions with post staff, we raised the issue of post staff lacking the
knowledge of legal requirements and a procedure for effectively responding to sexual assault
incidences.

               We recommend:

               9. That the country director finalize the post’s process for responding to
                  sexual assault incidents.


Volunteers and staff lack reliable, real time communication systems to send and receive
notifications in case of emergency

We found weaknesses in the post’s Volunteer communications systems. Volunteers often lack a
cellular signal to send or receive emergency communications from their site, and staff members
often lack a cellular signal while on travel. The government of Ethiopia has control of and has
been known to shut down landline and cellular phone systems, particularly during elections or
periods of political tensions, which are times when post is likely to activate its EAP. High-
frequency radios are not used by Volunteers at site or by staff in post vehicles as a
communications alternative because the government of Ethiopia has not granted the post the
permission that is required to use them. These factors could prevent Volunteers and staff from
sending or receiving information in an emergency given the limited alternatives to
communicating by land and cell phone.

Safety and security assessments conducted as early as 2004 by Peace Corps senior managers
cited weaknesses in communications system options for the post. The 2004 re-entry assessment
report stated that, “…alternative methods of communication should continue to be explored for
use in emergencies.” As recently as November 2009, the PCSSO recommended that
communications back-up systems “be firmly in place prior to placement of [environment
Volunteers],” who arrived at post in September 2010.

New entry guidance and PCM 270 discuss the importance of having an emergency action plan
for trainees and for Volunteers at site one month before pre-service training (PST) that includes
annual testing of the adequacy and reliability of the in-country communication network. In its
fourth year, the post has yet to establish an adequate and reliable in-country communication
network.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                     13
The CD raised the issue of unreliable communications systems in a memorandum to the Africa
Region director on January 13, 2010:

       Given the vastness of the country and the limited telecommunications infrastructure, we cannot
       rely on cell phones or landlines and our satellite phones have never worked effectively (the
       Thuraya SIM cards belong to the Ethiopian Telecommunications Corporation – a government
       monopoly). We are in the process of trying to circumvent this system by purchasing and testing
       Iridium phones. This remains a source of concern especially as we initiate an environment
       program which will place Volunteers in more remote sites in and around parks and forest areas
       where telephone network is limited to non-existent.

The CD stressed that, regardless of the resources in place (e.g., helicopters to support medical
evacuation), they remain compromised if the post cannot receive a timely distress call. A PCMO
stated his concern regarding his limited ability to reliably communicate with Volunteers in the
event they get sick or have a medical emergency.

The CD has requested funding in the post’s FY 2011-2013 IPBS for vehicle radios and for
additional iridium phones for Volunteers with no cellular service at site. After our field visit, the
CD distributed iridium phones to nine Volunteers assigned as security wardens to disseminate
communications to the other Volunteers in their regions. Iridium phones operate by satellite and
are independent from the Ethiopia-controlled phone systems. In November 2009, however, the
PCSSO reported that securing permission from the government of Ethiopia to operate shortwave
radios in Ethiopia “is unlikely.”

We are encouraged by the recent actions post has taken to improve its communications system.
However, given that the post does not currently have permission from the government of
Ethiopia to use high-frequency radios, additional communications options are needed to ensure a
reliable communications system is in place for all Volunteers and staff to receive information in
case of an emergency.

               We recommend:

               10. That PC/Ethiopia identify and establish a reliable, real-time means of
                   communication with every Volunteer.

               11. That PC/Ethiopia work with the U.S. Embassy in Addis Ababa and
                   pursue authorization from the government of Ethiopia to use high
                   frequency radio units as part of its communications system.

               12. That the Office of Safety and Security work with Office of Global
                   Operations and the Africa Region to ensure that Volunteer safety and
                   security recommendations made in prior Peace Corps safety and security
                   and Internal Management Assessment reports are addressed.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                           14
The post reported plans to open regional offices to improve Volunteer support
The 2006 security assessment recommended that the post establish a regional office to provide
medical care and resource center support and also as a means to reduce Volunteers’
transportation risks and shorten time away from their communities.
Volunteers we interviewed confirmed the need for regional centers. Many described the
challenge of multi-day travel to the post in Addis Ababa for medical or other support needs. In
particular, they felt unsafe travelling before daybreak and waiting at bus stations in the dark. A
PCMO stated that the long distances between the post and Volunteers’ sites is an area of concern
in the event of an emergency.
The CD requested funding to open four regional offices in an IPBS proposal for FY 2011-2013
to Africa Region management in March 2010. Although the CD reported having received
approval from region to fund one regional office using PEPFAR funds, no evidence was
provided to confirm this approval at the time of our report.

Volunteers were not prepared to respond to rock throwing incidents

We compared rock throwing incidents Volunteers described in interviews with similar reports
the post had on file. We found that only one of four rock throwing incidents reported to post was
entered into the Consolidated Incident Reporting System (CIRS). All safety and security
incidents must be reported in the CIRS per Agency policy.

Two additional rock throwing incidents were reported to OIG by Volunteers who stated they did
not report the incidents to post staff. According to PCM 270, the CD is responsible for making
Volunteers/trainees aware of the safety and security reporting protocols. We are concerned that
Volunteers are not adequately trained to report incidents to the post. In interviews, Volunteers
expressed fears of having rocks thrown at them and concerns about how they should respond.
Volunteers stated that the threat of rock throwing incidents should have been discussed during
the safety and security session at PST.

PCM 270 requires posts to track trends and develop strategies to minimize risks to Volunteers
and trainees. Characteristics and Strategies of a High Performing Post states CIRS data should
be used to shape training, develop best practices, and change policies to enhance safety and
security. We are concerned safety and security training may be missing relevant safety and
security warnings when not reported by Volunteers, or, when incidents are not entered into
CIRS.

               We recommend:

               13. That the country director ensure that trainees and Volunteers are
                   adequately informed regarding their responsibility to report all safety
                   and security incidents to post staff.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                   15
               14. That the country director ensure that all safety and security incidents
                   reported by Volunteers are entered into the Crime Incident Reporting
                   System within three business days, or immediately for violent crime
                   incidents.


The emergency action plan has not been tested and updated annually as required

PCM section 270 on “Volunteer/trainee Safety and Security” requires that each post develop and
revise its emergency action plan annually. It states:

       Under the direction of the CD, the EAP must be reviewed and tested annually to identify areas that
       may need revision. Such testing should include, at a minimum, the adequacy and reliability of the
       in-country communication network and the process for confirming the course of action to be taken
       by V/Ts and staff at each potential stage of an emergency.

The post has conducted only two communications tests in nearly four years. In interviews with
Volunteers, seven out of 20 either indicated that they had not participated in a test of the EAP or
they could use a refresher. All 20 confirmed they had a copy of the EAP. However, post
management reported that sections of the December 2009 EAP required updating. The CD and
the PCMOs reported they have been unable to update a listing of local medical facilities in
regions where Volunteers are placed due to competing priorities. The CD reported plans to
conduct a non-cellular communications test within a years’ time.

PCM section 350, “Emergency Action Plans” requires Peace Corps posts to submit their EAP to
the U.S. Embassy to be attached to the U.S. mission’s EAP. The embassy regional security
officer reported he did not have a copy of the post’s EAP when OIG interviewed him in April
2010. The embassy regional security officer noted he wanted the post’s EAP linked with the
embassy’s emergency plan so that the embassy would know how the Peace Corps plans to
respond in different emergency scenarios. The CD provided a copy to the U.S. Embassy in July
2010, which should help the embassy’s emergency action committee coordinate its planning.

               We recommend:

               15. That PC/Ethiopia test its emergency action plan annually to ensure that
                   staff and Volunteers are adequately trained to respond in case of
                   emergency.

               16. That PC/Ethiopia review its emergency action plan and update any
                   information as necessary, and that it provide updates to the U.S. Embassy
                   annually.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post’s resources and agency support are effectively aligned with the post's mission and agency


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                               16
priorities. To address these questions, we assess a number of factors, including staffing; staff
development; office work environment; collection and reporting performance data; and the
post’s strategic planning and budgeting.

In reviewing staff performance appraisals, OIG confirmed that all staff performance reviews
were completed on schedule. Upon arrival, the CD clarified each staff member’s role and
charged them with additional responsibilities. Staff members described increased clarity and
empowerment regarding their job duties as a result. Programming, administrative and medical
staff members consistently described their workload as heavy, but manageable. Nonetheless,
staff members are thoroughly motivated and engaged in their Peace Corps work.

Since the arrival of the current CD, programming, training, and administrative staff described
open communications among staff and a level of comfort with leadership, which has empowered
them to address operational or programmatic issues as needed. All staff members described
examples of working together as a team to support Volunteers. Programming, administrative
and medical staff members confirmed they were all included in the country program’s planning
and budgeting efforts. Staff reported that Volunteer and staff handbooks are updated so that
common questions and information needed by staff and Volunteers are addressed. The PCSSO
reported that the post’s duty officer protocols are well-written and would serve as a good
template for use by other posts.

Post is working to provide training opportunities for all staff

The CD acknowledged that staff development is particularly important given that none of the 24
locally-hired staff members hired since re-entry possessed prior Peace Corps work experience,
and given the high turnover of three direct hire staff, each having worked at the post for less than
two years. The post has had two AOs and several TDY AOs since re-entry in 2007. As a result,
the post does not possess the institutional knowledge present at more established posts, which
have operated for many years with a longstanding base of local staff.

Programming staff in particular described the challenges they face effectively supporting
Volunteers due to a lack of in-depth knowledge of Peace Corps programming and training
processes or prior experience and skills conducting Volunteer worksite development or
providing programmatic support. Staff expressed interest in shadowing their Peace Corps peers
at other posts to learn best practices and also in accessing online training to improve technical
skills.

In our discussions, the CD indicated her support for increased professional staff development.
Staff training opportunities for all staff are included in the FY 2011-2013 IPBS proposal, which
had not been done previously.

PC/Ethiopia has not completed a country program risk assessment

A PCSSO visited the post in November 2009 and produced a report, which he described, “would
serve as a starting point for a country risk assessment.” The report noted concerns about political
violence in Ethiopia and a “large misunderstanding of what Peace Corps was and was not,” in


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                      17
the communities he visited. A subsequent April 2010 PCSSO visit was limited to providing
assistance with post’s preparations to consolidate Volunteers during the May 2010 countrywide
elections. There was no additional progress toward completing a country risk assessment. Only
two of four regions where Volunteers serve have been visited by a PCSSO since re-entry, and a
country risk assessment has not been conducted since re-entry in 2007. Environment Volunteers
will be assigned to more remote areas of the same four regions in late 2010.

Peace Corps’ New Country Entry Guide states that a country risk assessment should be carried
out and repeated annually or as often as warranted. According to the guide:

       The CD is responsible for communicating safety and security information to Volunteers, including an
       overall assessment of potential safety and security risks, any country-specific conditions that may require
       lifestyle adjustments and the support Volunteers can expect to receive. To accomplish this, CDs are
       encouraged to ask for assistance from the regional PCSSO or embassy regional security officer, to refer to
       prior security assessment reports and guidance for developing an EAP, and to meet with their SSC [safety
       and security coordinator] and others to ensure that a risk assessment is carried out and repeated annually or
       as often as warranted.

A complete and thorough country risk assessment should be conducted given changes in safety
and security conditions reported by post staff and the post’s plans for placing environment
Volunteers in more remote areas in late 2010. The post’s programming, medical, and safety and
security staff we spoke to reported that safety and security conditions have changed in the past
two years. They observed or experienced increases in xenophobia or hostile acts toward
foreigners including increased incidences of rock throwing at Volunteers already commented on
in this report.

A completed country program risk assessment would provide valuable insights for how best to
support Volunteers in four regions where conditions may be different since re-entry, and to
effectively support environment sector Volunteers to be assigned to more remote areas of the
same four regions in late 2010.

                We recommend:

                17. That the Office of Safety and Security assign a Peace Corps safety and
                    security officer to complete a country risk assessment.


Low bandwidth limits post’s access to information sharing and support provided by
headquarters offices

The Office of the Chief Information Officer (OCIO) guidance advises Peace Corps posts to
choose an Internet service provider with minimum download and upload speeds of 512 kilobytes
per second (kpbs) and 256 kbps, respectively. The post received an upgrade to its Satellite
Internet access in April 2010. However, according to the OCIO global network operations
manager, the upgrade does not meet minimum bandwidth for new technology and architecture
currently being deployed to posts. Posts are provided guidance to conduct three bandwidth tests
during normal business hours. The AO’s test conducted in July 2010 yielded averages of 183
kbps download and 199 kbps upload, which are lower than what OCIO guidance recommends.


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                                     18
We learned from OCIO staff that as an alternative, posts use a local Internet service provider,
which meets minimum bandwidth requirements and Satellite Internet as a backup. According to
the post’s IT specialist, the government of Ethiopia’s control over the in-country Internet service
provider could be problematic. It is unknown at this time what the cost is for this alternative
option.

Post staff reported that Internet bandwidth is too slow to send and receive information via the
Internet. The staff reported that due to the slow connection speeds web pages frequently timeout
while they are updating security clearance forms. A PCMO noted he is unable to stay abreast of
medical information and online training due to slow connection speeds. Programming staff
noted they are unable to access videos and large files disseminated by programming and training
support staff; they are frustrated by the time it takes to load Guru 1, and post staff may not access
Peace Corps or other online information as a result. Limited or slow access to Internet also
makes sending and receiving Volunteer Reporting Tool files difficult. Post should explore
alternative Internet options that would allow post staff to effectively send and receive
information.

                  We recommend:

                  18. That the post coordinate with the Office of the Chief Information Officer
                      to pursue alternative Internet options to help PC/Ethiopia meet minimum
                      Internet bandwidth requirements.


Mixed guidance from Region and the Office of AIDS Relief regarding PEPFAR funds has
created confusion regarding the management and use of funds

Africa Region management’s review of the post’s budget proposals for appropriated funds, and
Office of AIDS Relief (OAR) management’s separate reviews of the post’s budget proposals for
PEPFAR funded activities has resulted in mixed guidance to the post. This mixed guidance has
made it difficult for post management to plan and budget PEPFAR funds according to federal
requirements and agency guidance. Additional guidance is needed for the post to spend down its
substantial carryover balance estimated at more than $4 million.

The management of PEPFAR funds is a complex and multipart activity that requires two
separate budgeting and planning processes. Post management develops a country operating plan
(COP) outlining PEPFAR activities with other PEPFAR-funded U.S. agencies in-country. The
COP is developed annually, as required by PEPFAR guidance, and is approved by the
Department of State. The post also annually submits an implementation plan and budget
execution plan to Peace Corps headquarters. OAR management participates in this review to
ensure the post’s PEPFAR activities are relevant to the Peace Corps mission and in compliance
with the COP. The COP guides PEPFAR programming and spending by country. PEPFAR
appropriations are transferred to Peace Corps via the Department of State.


1
 Guru is a Peace Corps online collaboration tool that enables the sharing of best practices via discussion forums,
FAQs, documents and a searchable directory.


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                                        19
Africa Region management reviews Peace Corps appropriations funds requested as part of the
IPBS process, while OAR oversees the posts’ COP budget planning process for PEPFAR
appropriations. According to the OAR senior advisor, OAR’s responsibility is limited to
ensuring that the post’s budget execution plan complies with activities and funding levels
outlined in the COP approved by Department of State. The OAR senior advisor further stated
that region management is responsible for approving post operations budget proposals, including
PEPFAR.

According to the Africa Region chief AO and the OAR senior advisor, posts receiving PEPFAR
funds have been advised to use Peace Corps appropriations to support core functions in order to
reduce budget risk in the event that PEPFAR funds are not made available. Posts have been
advised to focus its PEPFAR expenditures on supplementing HIV/AIDS activities.

Africa Region management and OAR management acknowledged that the post faces different
circumstances when compared to other posts. First, PC/Ethiopia receives a significantly higher
proportion of PEPFAR funding. PEPFAR funds accounted for 75 percent of the post’s operating
budget from FYs 2006 through 2009. Second, the post possesses higher unobligated balances
from prior fiscal years. According to the AO, one reason for the higher unobligated balances is
that the post lacked data to make informed requests for PEPFAR funding from FYs 2006-2009.
Africa Region management, the OAR senior advisor, and AO concur that post received more
PEPFAR funds than necessary through FY 2009 as a result. Therefore, the current CD and AO
inherited a substantial carryover balance when they assumed their positions during FY 2009.
The AO estimated a carryover balance of $4.2 million in April 2010. The post has begun to
address spending its PEPFAR carryover balance and has received approval to re-program $1.4
million of its prior year PEPFAR balance to fund FY 2010 activities. A preliminary finding
developed as a result of a concurrent OIG audit found that the post has not determined, in
consultation with Africa Region management and OAR management, how it will cost-effectively
maximize the use of its carryover PEPFAR funds.

The CD and AO reported that guidance provided by Africa Region management on how to spend
PEPFAR funds has not been consistent with guidance provided by OAR management. Since his
arrival in September 2008, the AO was advised by both Africa Region and OAR management to
fund more of the post’s operations using appropriated funds. However, in March 2010 the AO
received guidance from OAR management to spend down unobligated PEPFAR balances from
FYs 2008 and 2009. In addition, in May 2010 the CD was advised by Africa Region
management and OAR management to increase PEPFAR spending in order to address carryover
balances remaining. In May 2010, the OAR senior advisor changed guidance to posts slightly:
OAR distributed draft guidance to CDs to use PEPFAR funding to supplement programming,
and as enhancements to support growth.

According to the Africa Region chief AO and the OAR senior advisor, in the future they expect
the post to focus its PEPFAR expenditures on supplementing current HIV/AIDS activities and
supporting program growth, rather than on supporting core functions as the post did during its
initial years of operations. Additional, coordinated guidance from Africa Region management
and OAR management will help the post effectively transition its PEPFAR spending to
supplement its programming and to support growth, while also spending down carryover funds.



Final Country Program Evaluation Report: Peace Corps/Ethiopia                                 20
               We recommend:

               19. That Africa Region and Office of AIDS Relief coordinate to provide
                   guidance to address PC/Ethiopia’s President’s Emergency Plan for AIDS
                   Relief (PEPFAR) funding scenario, including any guidance necessary to
                   finalize a transition plan for the use of PEPFAR funds while maximizing
                   the expenditure of carryover funds.


The post is overcoming re-entry setbacks and preparing for growth

PC/Ethiopia has supported the agency’s growth strategy by effectively working to expand its
programs in the areas of environment and education to meet the development needs of Ethiopia
in those areas, and improvements to its Health-HIV/AIDS program and operations are
encouraging. The CD has outlined a plan to effectively address most of the weaknesses cited in
this report, as well as a sound plan for growth, in the FY 2011-2013 IPBS.

Program staff is developing new relationships with environment and education partners, and
operating agreements are being drafted. The host country officials and senior Peace Corps staff
we interviewed are confident that Volunteers will make significant contributions in both the
environment and education project sectors and these new relationships are likely to result in
more widespread HIV/AIDS activities for all of the post’s Volunteers.
The post received 33 environment sector Volunteers in September 2010 on schedule. A project
framework, core and technical competencies, and learning objectives have been drafted in
preparation for the environment sector training group. Post’s training preparations conform to
the suggested timelines for new projects outlined in the agency’s Pre-Service Training
Preparation Timeline Guidance.
The CD submitted an IPBS proposal for FY 2011-2013 to Africa Region management in March
2010. The CD described the post’s plans for growth as feasible and on schedule. A majority of
the staff members stated they feel confident the post can grow effectively as long as it continues
to be adequately resourced. In addition to the resource requests already discussed in this report,
the IPBS requests the following to effectively support the post’s growth:

   •   An additional general services officer to address long standing staff housing issues and
       manage the motor pool,
   •   A grants coordinator to assist with grants management and conduct informational
       meetings in communities where Volunteers serve or will serve,
   •   A second safety and security officer to support the increased workload associated with
       additional Volunteers,
   •   A third PCMO to provide support to additional Volunteers,
   •   Staffing and resources for creation of four regional offices,
   •   Transition additional personal services contractors to foreign service national positions in
       order to effectively manage additional staff associated with growth.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                    21
Ensuring effective post operations will remain challenging, particularly given the long distances
between Volunteers and the post serving in such a large country. Ethiopia is approximately
twice the size of Texas. The pace of work is slowed by the long distances between Volunteer
sites and travel over rough terrain to reach them. This impacts the staffs’ ability to quickly
accomplish programmatic and administrative tasks such as conducting site visits and ongoing
engagement with local community members. We found that conducting visits of Volunteers at
their sites often required a full day of travel to visit a single Volunteer. We observed the CD is
careful to plan for the necessary time and resources to effectively support Volunteers. We
encourage Peace Corps management to consider the post’s requests for additional staff and
resources intended for both addressing weaknesses and to achieve effective growth through FY
2013.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                    22
                OBJECTIVE, SCOPE, AND METHODOLOGY

The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. The Inspector General
(IG) is under the general supervision of the Peace Corps Director and reports both to the Director
and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of PC/Ethiopia on January
29, 2010. For post evaluations, we use the following researchable questions to guide our work:

•   To what extent has post developed and implemented programs to increase host country
    communities’ capacity?
•   Does training prepare Volunteers for Peace Corps service?
•   Has the post provided adequate support and oversight to Volunteers?
•   Are post resources and agency support effectively aligned with the post’s mission and agency
    priorities?
•   Is the post able to adequately administer the PEPFAR program, support Volunteers, and meet
    its PEPFAR objectives?

Current PC/Ethiopia program operations are entirely focused on Volunteer projects that further
the goals of the PEPFAR. Therefore, our research question related to the PEPFAR program was
incorporated into each of our researchable questions and was considered an integral part of our
data collection and fieldwork. As a relatively new country entry, we also paid particular
attention to country re-entry guidance established by Peace Corps. The period of review for a
post evaluation is one full Volunteer cycle (typically 27 months).

We did not include grant funding activities in the scope of our work because a simultaneous
audit of PC/Ethiopia was conducted (at the time of this writing, the final audit report has not yet
been issued).

The evaluator conducted the preliminary research portion of the evaluation January 29-March
29, 2010. This research included review of agency documents provided by headquarters and
post staff; interviews with management staff representing the region, Office for Overseas
Programming and Training Support (OPATS), and OAR; and inquiries to the Offices of Safety
and Security, Medical Services, Private Sector Initiatives, and Volunteer Recruitment and
Selection.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                     23
In-country fieldwork occurred from March 23 - April 8, 2010, and included interviews with post
senior staff in charge of programming, training, and support; the U.S. Deputy Chief of Mission;
the embassy regional security officer; and host country government ministry officials. In
addition, we interviewed a stratified judgmental sample of 20 Volunteers (27 percent of
Volunteers serving at the time of our visit) based on their length of service, site location, project
focus, gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE) (formerly the
President’s Council on Integrity and Efficiency). The evidence, findings, and recommendations
provided in this report have been reviewed by agency stakeholders affected by this review.



                                 INTERVIEWS CONDUCTED

As part of this post evaluation, interviews were conducted with 20 Volunteers, 12 staff members
in-country, and 16 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Ethiopia, and key ministry officials. Twenty-two Volunteers were initially identified
as part of the interview sample. 2 Volunteer interviews were conducted using a standardized
interview questionnaire, and Volunteers were asked to rate many items on a five-point scale (1 =
not effective, 3 = average effective, 5 = very effective). The analysis of these ratings provided a
quantitative supplement to Volunteers’ comments, which were also analyzed. For the purposes
of the data analysis, Volunteer ratings of “3” and above are considered favorable. In addition, 16
out of 20 Volunteer interviews occurred at the Volunteers’ homes, and we inspected 14 of these
homes using post-defined site selection criteria. The period of review for a post evaluation is
one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Ethiopia; the Volunteer sample was selected to reflect these demographics.




2
  Although there were 20 Volunteers in the final sample, 5 additional informal interviews of Volunteers were
conducted in-country. Some sampled Volunteers were replaced due to: (a) time constraints related to OIG travel, (b)
requests for an interview by Volunteers, and (c) Volunteers on annual leave during the interview period.


Final Country Program Evaluation Report: Peace Corps/Ethiopia                                                   24
Table 3: Volunteer Demographic Data
 Project        Percentage of Volunteers
 Health         100%
 Gender         Percentage of Volunteers
 Female         57%
 Male           43%
 Age            Percentage of Volunteers
 25 or younger 62%
 26-28          24%
 29-49          7%
 50 and over    8%
Source: March 2010 PC/Ethiopia Volunteer roster. Note: Percentages may not total 100% due to rounding.

At the time of our field visit, PC/Ethiopia had 28 staff positions. The post also employs
temporary staff/contractors to assist with PST. Given the time of our visit, these positions were
not staffed. We interviewed 15 staff members, including a consultant hired to assist with the
environment program.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                            25
Table 4: Interviews Conducted with PC/Ethiopia Staff Members
                        Position                     Status  Interviewed
 Country Director                                    USDH         X
 Administrative Officer                              USDH         X
 Associate Peace Corps Director/Health               USDH         X
 Program Manager/Health                               PSC         X
 Program Assistant/Health                             PSC         X
 Program Assistant/Environment                        PSC
 Training Manager                                     PSC         X
 Language & Cross-Culture Coordinator                 PSC         X
 Peace Corps Medical Contractor                      US PSC       X
 Peace Corps Medical Contractor                       PSC         X
 Medical Secretary                                    PSC
 Safety & Security Coordinator                        PSC         X
 IT Specialist                                        PSC
 Executive Assistant / Volunteer Support Coordinator  PSC         X
 Volunteer Records Clerk                              PSC
 Receptionist                                         PSC
 Cashier                                              FSN
 Voucher Examiner                                     PSC
 Financial Assistant                                  FSN
 General Services Manager                             PSC         X
 General Services Assistant                           PSC
 Driver/Mechanic (5)                                  PSC
 Janitor                                              PSC
 Gardner                                              PSC
Source: PC/Ethiopia staffing data, April 2010.

Sixteen additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                               26
Table 5: Interviews Conducted with PC/Headquarters Staff, Embassy Officials and Key
Ministry Officials
                           Position                                     Organization
 Acting Regional Director                                   PC/Headquarters
 Acting Chief of Operations                                 PC/Headquarters
 Chief Administrative Officer                               PC/Headquarters
 Programming & Training Assistant                           PC/Headquarters
 Country Desk Officer (2)                                   PC/Headquarters
 Regional Safety & Security Desk Officer                    PC/Headquarters
 Program & Training Specialist (Health)                     PC/Headquarters
 Program & Training Specialist (Education)                  PC/Headquarters
 Peace Corps Safety & Security Officer                      PC/Headquarters
 Sub-Region Programming & Training Coordinator              PC/Headquarters
 Deputy Chief of Mission                                    U.S. Embassy in Ethiopia
 Regional Security Officer                                  U.S. Embassy in Ethiopia
 President's Emergency Plan for AIDS Relief Coordinator     U.S. Embassy in Ethiopia
 Director of Directorate, Ministry of Agriculture and Rural Ministry of Environment & Forestry
 Development                                                Resources
 Chief, Basic Education Services                            U.S. Agency for International
                                                            Development
Source: PC/Ethiopia data, April 2010.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                            27
                         LIST OF RECOMMENDATIONS

WE RECOMMEND:

   1. That programming staff include host country government and project partners in program
      advisory committee meetings with Volunteers and programming staff.

   2. That prior to its next trainee input, PC/Ethiopia secure an agreement with its health sector
      partners which clearly states whether the post or its health partner assumes responsibility
      for Volunteer housing.

   3. That PC/Ethiopia negotiate and secure an agreement, which clearly states whether or not
      environment and education partners are to provide Volunteer housing as a host country
      contribution.

   4. That PC/Ethiopia include steps in its site development plan to better ensure that
      counterparts understand their role in supporting the Volunteer and the Volunteers’ role in
      the community.

   5. That Volunteer safety and security training presentations include a review of common
      safety and security incidents experienced by Volunteers and strategies for how best to
      avoid or respond to such incidents.

   6. That the post provide additional English language training to host country staff so they
      may more effectively respond to Volunteer support needs, or in the event of an
      emergency.

   7. That the post establish minimum English language requirements for current and future
      staff.

   8. That post maintain complete Volunteer information, which includes up to date, reliable,
      accessible site locator forms, site histories, site visit reports and Volunteer whereabouts
      information in case of emergency.

   9. That the country director finalize the post’s process for responding to sexual assault
      incidents.

   10. That PC/Ethiopia identify and establish a reliable, real-time means of communication
       with every Volunteer.

   11. That PC/Ethiopia work with the U.S. Embassy in Addis Ababa and pursue authorization
       from the government of Ethiopia to use high frequency radio units as part of its
       communications system.



Final Country Program Evaluation Report: Peace Corps/Ethiopia                                    28
   12. That the Office of Safety and Security work with Office of Global Operations and the
       Africa Region to ensure that Volunteer safety and security recommendations made in
       prior Peace Corps safety and security and internal management assessment reports are
       addressed.

   13. That the country director ensure that trainees and Volunteers are adequately informed
       regarding their responsibility to report all safety and security incidents to post staff.

   14. That the country director ensure that all safety and security incidents reported by
       Volunteers are entered into the Crime Incident Reporting System within three business
       days, or immediately for violent crime incidents.

   15. That PC/Ethiopia test its emergency action plan annually to ensure that staff and
       Volunteers are adequately trained to respond in case of emergency.

   16. That PC/Ethiopia review its emergency action plan and update any information as
       necessary, and that it provide updates to the U.S. Embassy annually.

   17. That the Office of Safety and Security assign a Peace Corps safety and security officer to
       complete a country risk assessment.

   18. That the post coordinate with the Office of the Chief Information Officer to pursue
       alternative Internet options to help PC/Ethiopia meet minimum Internet bandwidth
       requirements.

   19. That Africa Region and Office of AIDS Relief coordinate to provide guidance to address
       PC/Ethiopia’s President’s Emergency Plan for AIDS Relief (PEPFAR) funding scenario,
       including any guidance necessary to finalize a transition plan for the use of PEPFAR
       funds while maximizing the expenditure of carryover funds.




Final Country Program Evaluation Report: Peace Corps/Ethiopia                                      29
APPENDIX A


                     MANAGEMENT’S RESPONSE TO
                      THE PRELIMINARY REPORT




DATE:        December 8, 2010

TO:          Kathy Buller, Inspector General

FROM:        Daljit K. Bains, Chief Compliance Officer
             Dick Day, Africa Regional Director

CC:          Carrie Hessler-Radelet, Deputy Director
             Stacy Rhodes, Chief of Staff
             Joaquin Ferrao, Deputy Inspector General
             Jim O’Keefe, AIG Evaluations
             Esther Benjamin, AD, Office of Global Operations
             Lynn Foden, AF CHOPS
             Nwando Diallo, CD Ethiopia
             Bill Rubin, General Counsel
             Lien Galloway, Associate General Counsel
             Ed Hobson, AD Safety and Security
             April Miller, Senior Evaluator

 SUBJECT: Africa Region’s Response to the OIG Preliminary Report on the
          Program Evaluation of PC/Ethiopia


Enclosed please find Africa Region’s response to the recommendations made by the
Inspector General for Peace Corps/Ethiopia, as outlined in the Preliminary Report of
the OIG Audit, November 2010.

The Region concurs with twelve (12) recommendations, partially concurs with six (6)
recommendations and does not concur with one (1) of the nineteen recommendations.
Region will continue to work with Post to ensure full implementation of the OIG
recommendations.


Recommendation 1.0: That programming staff include host country government and
project partners in program advisory committee meetings with Volunteers and
APPENDIX A

programming staff.
          Concur: Post agrees that the HIV/Health sector include host country government
          and project partners in its Program Advisory Committee (PAC) meetings with
          Volunteers and programming staff. Due to the rapid re-entry into Ethiopia and the
          start-up of the Health sector, host country government and project partners were
          not sufficiently incorporated in a PAC.
          For the new Environment sector, which completed swearing in December
          3, 2010, the PAC is on the agenda and will comprise of key collaborating
          partners who participated in the Stakeholders’ Workshop held December
          22, 2009. Post will ensure the next PAC meeting for the Health sector, March
          2011, will include the necessary government and non- gvernmental partners.
      Documents included:
                Invitation to Partners – December 8, 2009
                Stakeholder Meeting Attendees
                Meeting Minutes – December 22, 2009
      Documents to be submitted:
      Post will send a PAC Health Agenda and Minutes when this meeting is held
      March 2011.
      Status and timeline for completion: March 2011

Recommendation 2.0: That prior to its next trainee input, PC/Ethiopia secure an
agreement with its health sector partners which clearly states whether the post
or its health partner assumes responsibility for Volunteer housing.

      Partially Concur: Due to the rapid start up of programming and re-entry into Ethiopia
      with the Health sector, and available PEPFAR funding, the Health MOU contained
      language stating, “As organized with PEPFAR for the 2007-
      2008 fiscal year, PEPFAR-Ethiopia will make resource available in the amount of
      approximately $45,000 (forty-five thousand US dollars) to the Ministry of Health to
      cover Volunteer housing for the first year.” (Ministry of Health MOU B. Housing and
      Furnishings, 2007). It should be noted that the current Country Director inherited this
      MOU and the associated historic precedent; the existing language in the MOU is
      unlikely to change.

      As a general matter, until the Ministry or any partner organization agrees to provide
      Volunteer housing as a host country contribution, Peace Corps bears such cost.
      Although the standard placement MOU template generated by the Office of General
      Council (OGC) provides for the possibility that a ministry or partnering organization
      may provide Volunteer housing, Post generally does not and cannot mandate
      contributions by ministries and partnering organizations.
APPENDIX A


      However, some ministries and partner organizations may be amenable to further
      discussions, and therefore, the MOUs may state that Peace Corps encourages the
      ministries or partner organizations to provide Volunteer housing. As the
      collaboration progresses and strengthens and resources become available, the
      ministries or partnering organizations may end up bearing such cost in whole or in
      part. For example, the MOU with the Ethiopian Wildlife Conservation Authority
      for the Environment sector has revised language that Peace Corps “encourages” the
      Ministry to provide housing. In further discussions with the Ministry, the Country
      Director has been successful in securing 50% of Volunteer housing covered by the
      Ministry. Given this achievement, the Post will continue to negotiate housing
      coverage as new MOUs are negotiated.

      The current Country Director of Peace Corps Ethiopia consults and works with the
      Office of the General Counsel (OGC) all of the current MOUs that were signed with
      the Ministry of Agriculture and Rural Development and the Ethiopia Wildlife
      Conservation Authority. Therefore, all of the above- mentioned MOUs signed by the
      current Country Director have been vetted with the OGC.

      When the opportunity arises, Post will approach the Ministry of Health in an attempt
      to update the HIV/Health Sector MOU. This process though will not take place for
      another 2-3 years given the Post focus on effectively implementing the Education
      and Environment sector programs. Given the lessons learned from implementation
      of the Health Program, Post has been successful in negotiating and securing host
      country contribution toward Volunteer housing, and is confident this will be the
      precedent moving forward.
      Documents included:
            MOU Ministry of Agriculture & Rural Development, (Article 19: Housing
           and Furnishings, page 10), August 27, 2010
            MOU Ethiopian Wildlife Conservation Authority (EWCA), (Article 5:
           Obligations of the Authority, B. Housing and Furnishings)
            Operating Agreement with Ministry of Health
      Status and timeline for completion: complete


Recommendation 3.0: That PC/Ethiopia negotiate and secure an agreement, which
clearly states whether or not environment and education partners are to provide
Volunteer housing as a host country contribution.

      Partially Concur: Post at all times will attempt to negotiate greater host country and
      partner contributions with regard to housing costs. As a general matter, until the
      Ministry or any partner organization agrees to provide Volunteer housing as a host
      country contribution, Peace Corps bears such cost. Although the standard placement
      MOU template generated by the Office of General Counsel (OGC) provides for the
      possibility that a ministry or partnering organization may provide Volunteer housing,
APPENDIX A

        Post generally does not and cannot mandate contributions by ministries and
        partnering organizations.

        However, some ministries and partner organizations may be amenable to further
        discussions, and therefore, the MOUs may state that Peace Corps encourages the
        ministries or partner organizations to provide Volunteer housing. As the
        collaboration progresses and strengthens and resources become available, the
        ministries or partnering organizations may end up bearing such cost in whole or
        in part.
        Although the MOU with the Ethiopian Wildlife Conservation Authority for
        the Environment sector has language that Peace Corps “encourages” the

Ministry to provide housing, the Country Director has been successful in securing 50% of
Volunteer housing covered by the Ministry.

        To the extent that Post is able to negotiate and settle with other ministries, such as
        the Ministry of Education, and partner organizations the Volunteer housing issue at
        the time of signing of the MOUs, post will do so diligently. But if the parties cannot
        come to agreement but are amenable to continued discussions on Volunteer housing,
        MOUs will contain the “encouragement” language or some other language favorable
        to such discussions.
        Documents included:
             MOU Ministry of Agriculture & Rural Development, (Article 19:
             Housing and Furnishings, page 10), August 27, 2010
             MOU Ethiopian Wildlife Conservation Authority (EWCA), (Article 5:
             Obligations of the Authority, B. Housing and Furnishings)
        Status and timeline for completion: complete


 Recommendation 4.0: That PC/Ethiopia include steps in its site development plan to
 better ensure that counterparts understand their role in supporting the Volunteer and
 the Volunteers’ role in the community.

    Concur:
    Since PC/Ethiopia is returning to the country after an absence, there continues to
    be a familiarization phase with counterparts and the community with regard to the
    counterparts role and there being a full understanding of the responsibilities of the
    counterpart. This is a natural evolution in the re-entry process.

    Additionally, Post is launching a program to familiarize the people of Ethiopia at large
    and more specifically our partners in the field on Peace Corps goals and objectives, and
    to facilitate greater counterpart understanding and commitment as well as community
    integration for Volunteers. This program is modeled after the existing successful
    Environment installation program in Madagascar. The installation program will take
    place during the first month of the newly sworn-in Environment Volunteer’s arrival. The
APPENDIX A

   swearing in ceremony took place on Friday, December 3, 2010.This timeframe was
   selected in order to involve the Volunteers and their counterparts in making
   appointments with key officials and community members in their respective community
   at the outset and in order to allow the Volunteer time to settle-in so that if there are any
   issues regarding their general welfare such as housing, etc., we can use this opportunity to
   address it.

   The sites will be visited by Post staff between the dates of December 13 – January 12,
   2011.

   Post also includes steps in its site development to ensure that counterparts
   understand their role in supporting Volunteers and the Volunteers’ role in the
   community. The site development actions implemented by Post regarding the
   counterparts are outlined below with supporting documentation.

   For example, after receiving the “Volunteer Request Form”, Peace Corps staff return to
   the site to conduct an extensive orientation and hold discussions with theselected
   counterpart. During this orientation, Peace Corps staff explain the mission of the
   Peace Corps and discuss the roles and responsibilities of the Peace Corps office, the
   hosting agency, the Volunteer’s supervisor, the Volunteer’s counterpart and those of
   the Volunteer, leaving with the counterpart a copy of the pamphlet “Roles and
   Responsibilities of Peace Corps Partnerships”.

   At Pre-Service Training (PST), counterparts are invited to attend a Counterpart
   Workshop during which Peace Corps staff again explain the role of the
   counterpart and what they can do to support their Volunteer. At the end of the
   Counterpart Workshop which includes time for Volunteers and counterparts to get to know
   each other and work on an action plan, the counterpart travels back to site with the
   Volunteer who then spends one week at site working with their counterpart before
   returning to complete PST.

   It should be noted that the government of Ethiopia has initiated a Business Review
   Process exercised by the Ethiopia Federal Government, which reviews every task and
   job in every federal, regional, district and Woreda level of the government structures.
   This has resulted in many staff being replaced, reshuffled and/or transferred and has had
   an impact on the retention of counterparts. The BPR is expected to be completed within
   the next 2 years.

   Operating within this current environment, the re-entry familiarization phase and the
   additional steps being taken by Post to ensure the counterparts understand their role,
   Post and Region are confident that the understanding by counterparts of their full
   responsibilities will be met.
      Documents included:
              Counterpart Workshop Schedule – November 2009
APPENDIX A

              Environment PST Counterpart Workshop – November 2010
              HIV/AIDS Counterpart Workshop 2008
              Roles and Responsibilities of Partnerships
              Volunteer Request Form (2 pages)

              Environment Group I – Installation Plan
      Documents to be submitted:
              Post staff site visit notes from December 2010-January 2011
      Status and timeline for completion: January 2011


Recommendation 5.0: That Volunteer safety and security training presentations include
a review of common safety and security incidents experienced by Volunteers and
strategies for how best to avoid or respond to such incidents.

      Concur: Even prior to becoming a volunteer, Peace Corps communicates multiple
      times and through multiple mediums the importance of safety and security to invitees.
      Safety and security is addressed in the Ethiopia Welcome Book, the Invitee’s Letter to
      Family and also during Staging (pre-departure training).

      This messaging of the importance of safety and security continues through volunteer
      service. During three months of Pre-Service Training (PST), safety and security
      strategies, PCV concerns, potential safety and security threats and how to respond to
      these incidents are all addressed. Safety and Security is also included in the
      Volunteer Handbook (pages 16-18) which is used by all Volunteers throughout their
      twenty-seven months of service.

      At both Pre-Service and In-Service Training (IST), Post’s Safety and Security
      Coordinator (SSC) conducts a review of common Volunteer-related safety and security
      incidents and strategies on how best to avoid and/or respond to these incidents. The
      Regional Safety and Security Officer (PCSSO) and the SSC collaborate on safety and
      security trends analysis. In November 2010, during the Environment PST the SSC led
      a session with Volunteers on the 2010 year- to-date crime statistics, covering the types
      of incidents, when and where they occurred, and ways Volunteers can reduce the risk
      of being a victim.

      Additionally, in order for Volunteers to understand the importance of safety and
      security in country, Post has willing Volunteers share their experiences as a victim of
      a crime or incident to minimize future incidents. Post has found this personal
      sharing is very effective. This type of session is documented in the Environment PST
      Counterpart Workshop Agenda.
APPENDIX A

       Documents included:
               OCSR Addis - All PCVs, April 15, 2010

               Election Plan Memo – All PCVs, May 7, 2010

               Incident Reporting Flowchart

               Approach to Safety and Security (All PCVs)

              Environment PST Counterpart Workshop - S&S Session – November
              2010

               SSC CIR Data Analysis (Excel)

               Victimization by Crime Type 2010 (PowerPoint)
       Status and timeline for completion: complete November 2010


Recommendation 6.0: That the post provide additional English language training to
host country staff so they may more effectively respond to Volunteer support needs, or
in the event of an emergency.

       Partially Concur: Post recognizes the importance of having Volunteers
       communicate successfully and comfortably with staff. Staff which interact most
       directly with Volunteers and provide Volunteer support have effective English
       language skills. These positions include: Program Managers, Program Assistants,
       PCMCs, and Safety and Security Coordinator. English fluency is reflected in their
       job announcements and assessed during the interview process.

       In countries such as Ethiopia where English is not the official language, Region does
       not require all staff to have English fluency. As such, drivers, janitors and some
       other staff may have rudimentary English skill. For most Posts that are not native
       English speaking this is an ongoing challenge that requires continuous support and
       is addressed with Volunteers during PST.

       Post is searching to identify an English tutor or program in response to the staff
       initiated request for English language as a development opportunity for staff.

       Documents included:

              Job announcements and language requirements: Driver, Guard,
              Program Manager Health, Program Assistant Health
       Status and timeline for completion: TBD, once an English tutor or suitable
       English classes are identified
APPENDIX A

Recommendation 7.0: That the post establish minimum English language
requirements for current and future staff.

       Partially Concur: Post recognizes the importance of having volunteers communicate
       successfully with staff. Staff that interact most directly with volunteers and provide
       Volunteer support have effective English language skills. These positions include the
       Program Managers, Program Assistants, PCMCs, Safety and Security Coordinator.
       English fluency is required as reflected in their job announcements and assessed
       during interview processes. Additionally, a language test is conducted for these staff
       who must pass a written exam.

       In countries such as Ethiopia where English is not the official language, Region does
       not require all staff to have English fluency. As such, drivers, janitors and some
       other staff may have only rudimentary English. The importance of Peace Corps Pre-
       Service Training (PST) is to ensure local language proficiency of volunteers and
       also other cultural barriers in communicating and communication style. Similarly,
       during PST Volunteer expectations are addressed given that they are not operating in
       an English speaking post. For most Peace Corps posts that are not native English
       speaking this is an ongoing challenge that requires continuous support.

       Given staff interest, Post is pursuing English language training for staff. This training
       is not required, but Post has been in the process of locating and recruiting an English
       teacher as a staff development opportunity.


       Documents included:
               Job announcements and language requirements: Driver, Guard,
               Program Manager Health, Program Assistant Health

       Status and timeline for completion: TBD, once an English tutor or suitable
       English classes are identified

Recommendation 8.0: That post maintain Volunteer information, which includes up to
date, reliable, accessible site locator forms, site histories, site visit reports and Volunteer
whereabouts information in case of emergency.

       Concur: Post is beginning to use Volunteer Information Database Application (VIDA)
       more comprehensively to compile Volunteer information using a combination of
       different information such as the site locator forms, site histories, site visit reports and
       Volunteer whereabouts. Post has scanned Volunteer site locator forms into VIDA, has
       input site visits, except those by the PCMOs, into VIDA, and has developed a country
       map identifying all Volunteer sites. Post has also begun filing by site as opposed to by
       Volunteer, allowing for a site’s history to be captured comprehensively regardless of
       the number of Volunteers who lived and worked at that site.
       Documents included:
APPENDIX A


                PCV Sites (PCV Site Map with Headshot, Locality Map, VIDA
                Screenshot)

                PCV Volunteer Roster

                Site Locator Map Training

                Map Images (1-5)

                S&S community Survey – July 2009
      Status and timeline for completion: completed November 2010


Recommendation 9.0: That the country director finalize the post’s rape response
protocol as required by PCM section 270.

      Concur: Post has updated its Rape Response Protocol as required by the PCM Section
      270. Additionally, Post maintains a Rape Response Action Plan.
      Documents included:
          Rape Response Action Plan
          Crime Incident Reporting Flow Chart
          Rape Incident Notification Flow Chart

      Documents to be submitted:
         Rape Response Protocol
      Status and timeline for completion: December 2010


Recommendation 10.0: That PC/Ethiopia identify and establish a reliable, real-
time means of communication with every Volunteer.

      Partially Concur: Post agrees that having more immediate real time
      communication with every volunteer would be ideal. However, this technology
      capacity does not exist. Even prior to becoming a volunteer in Ethiopia, Post
      conveys the distinct nature of communication challenges. These communication
      challenges highlight the importance of safety and security through different
      messaging in Welcome Books, the Invitee Letter and during Staging. Despite these
      challenges, Post utilizes different means of technology to communicate with
      Volunteers: cell phones, satellite phones and e-mail.

      The Peace Corps/Ethiopia Welcome book is sent to Volunteers before in- country
      arrival and all other communication with potential and current Volunteers
      establishes a realistic expectation of communication. Post has not given Volunteers
APPENDIX A

      the impression that reliable, real-time communication can or will be achieved. The
      emphasis by Post to Volunteers is to build reliable relationships and establish
      concrete backup plans at their sites in case of an emergency and if they are
      unable to get through immediately to Pos. Examples of these messages on
      realistic communication include:

      1. Welcome Book

      Telephones
      Almost all sites have telecom centers with international long distance. Peace
      Corps/Ethiopia provides a telecommunications allowance.           Cellular
      telephones are widespread in Ethiopia, although coverage varies across the country.
      You will have the option of purchasing a SIM card and phone during Pre-Service
      Training (PST); almost all current Volunteers have mobile phones.

      Computer, Internet, and E-mail Access
      Internet access is available at internet cafes in most towns and cities, but can be slow
      and costly, so most Volunteers use internet about once every few weeks. Designated
      computers in the resource center at the Peace Corps office have internet access, and
      you are welcome to use these when in Addis Ababa. Many Volunteers bring laptops
      for research, digital photos or entertainment, but as with any valuable item, there is a
      risk of theft or damage.”

      2. From the Letter to Trainee family members

      Telephone Calls
      The telephone system in Ethiopia is relatively good. Service to the United States is
      somewhat reliable, phones exist in most towns and Volunteers can often plan to be
      at a phone on a certain date to receive calls from home on their cell phones. This
      usually works, but there are also innumerable factors that can make the best-laid
      plans fall apart. When calling Ethiopia you may often get voice recorded messages
      stating that the person you are calling is “out of the service area”, while this is often
      true, sometimes it is just a poor network connection which can be remedied by
      calling again. It is not uncommon to have to call 5-10 times before getting through.
      There is no voice mail service in Ethiopia, so please just keep trying to get through.”

      Post will continue to assess and implement the latest communication
      technologies as they become available in the local market.

      Documents included:
          Ethiopia Welcome Book – August 2010
          Ethiopia Family Letter – August 2010
      Status and timeline for completion:: August 2010
APPENDIX A

Recommendation 11.0: That PC/Ethiopia work with the U.S. Embassy in Addis Ababa
and pursue authorization from the government of Ethiopia to use high frequency radio
units as part of its communications system.

      Do Not Concur: Region agrees it is imperative to have a strong communication
      system in place to contact volunteers especially in the case of emergencies and outside
      of the existing cell phone network which is controlled by the Ethiopian government.
      However, Region does not agree that Post and the U.S. Embassy should pursue
      authorization of radio units from the government of Ethiopia. The Ethiopian
      government maintains tight controls over all communication systems and essentially
      has a monopoly.

      This monopoly is supported by the existing legal framework. To ensure continued
      bilateral US-Ethiopian relations, Post will continue to operate within the country’s
      existing legal framework. Additionally high frequency radios are not foolproof.

      To address this need for back up emergency communications, Post purchased
      15 Iridium Satellite phones in FY 10, issuing nine satellite phones to the PCV Wardens
      and utilizing 5 for staff use. Most recent PCV Warden training occurred on April 7,
      2010, co-facilitated by the PCSSO. All PCVs Wardens were trained in their
      responsibilities as wardens, how to use the satellite phone and provided with written sat
      phone instructions.

      Documents included:
                 Satellite Point of Contact (POC) Phone Numbers
                 POC “Warden” Orientation (Power Point)
      Status and timeline for completion: unable to complete given legal
      restrictions

Recommendation 12.0: That the Office of Safety and Security work with Office of
Global Operations and the Africa Region to ensure that Volunteer safety and security
recommendations made in prior PCSSO and internal management assessment reports
are addressed.

      Concur: From the recent April 2010 PCSSO report, Post has and continues to
      implement the PCSSO recommendations and the recommendations made
      by the Internal Management Assessment (IMA) team’s report from November
      2008. Documentation includes the December 2008 Status update from post on the
      IMA recommendations, and the Safety and Security Desk Officer (SSDO’s)
      Tracking Sheet for the PCSSO Recommendations.

      Documents included:
             •   PCSSO Recommendation Tracking (Excel)
             •   IMA Status Report 2008
APPENDIX A

       Status and timeline for completion: Q2 2011


Recommendation 13.0: That the country director ensure that trainees and Volunteers
are adequately informed regarding their responsibility to report all safety and security
incidents to post staff.

       Concur: Volunteers and trainees are consistently made aware of the importance of
       reporting all safety and security incidents. This messaging of reporting incidents
       begins in the three month long Pre-Service Training (PST), continuing through In-
       Service Trainings (ISTs) and is included in other official meetings and events with
       Volunteers. During site visits, staff also ask Volunteers about safety and security
       incidents or concerns.

       Communication about safety and security incidents is a two-way
       collaboration. As specific safety and security events approach, such as elections,
       Post reminds Volunteers to be pro-active and also report any safety and security
       concerns or incidents. Incident reporting is addressed in the PCV Handbook (pages
       16-18).

       Additionally, every Friday, the Country Director notifies all Volunteers through
       emails with news including Friday updates on the latest safety and security
       information for the country.
       Documents included:
               CIRS Report – 8-4-2010
               Ethiopia PCV Handbook 2010
               SSC email (Hishe Hailu) – Nov 15 2010
             • SSC Incident Report – Oct 18 2010
             • Weekly Update (Nov 12, 19, 26 and Dec 6, 2010)

       Status and timeline for completion: completed December 2010

Recommendation 14.0: That the country director ensure that all safety and security
incidents reported by Volunteers are entered into the Crime Incident Reporting
System within three business days, or immediately for violent crime incidents.

       Concur: When Post’s previous Safety and Security Coordinator (SSC) left Peace
       Corps, Post recognized it did not have enough staff trained to effectively support
       security-related tasks to enter Volunteer safety and security incidences into CIRS
       (Crime Incident Reporting System). Post has since conducted CIRS training for
       staff and is confident that between the various trained staff, it will ensure that all
       safety and security incidences are reported within three business days, or
       immediately for violent crime incidents.
APPENDIX A

      The Safety and Security Desk Officer (SSDO) conducted an analysis of the timeliness
      of Post entering CIRS data for 2010. Between January 1st 2010 and November 19th
      2010, a total of 15 incidents were entered into the CIRS database by post. Of those 15
      reports, 14 were entered within three business days of the date the PCV reported the
      incident to post. The only report that fell outside of the requirements established in
      Peace Corps’ Consolidated Incident Reporting Guide (page 3) was Incident #663-
      2010720-10949, which was reported to Post by the Volunteer on July 14th and
      submitted via CIRS to HQ on July 20th.
      Documents included:
         •   Ethiopia Crime Statistics (PowerPoint)
         •   Ethiopia 2009 Crime Graphs (Excel)
      Status and timeline for completion: completed and continuous

Recommendation 15.0: That PC/Ethiopia test its EAP annually to ensure that staff
and Volunteers are adequately trained to respond in case of emergency.

      Concur: Post conducted an EAP test in April 2010. At that time, the PCSSO was
      visiting Post so his presence was used as an opportunity to conduct refresher training
      for staff and Volunteer Wardens. Post is due to conduct its next annual EAP test
      during the second quarter of 2011. Supporting documentation shows the results of
      the EAP test conducted this year.

      Documents included:
          Lessons Learned from Elections (email)
          Warden Training Session
          EAP – Warden Responsibilities (page 7 – PowerPoint)
          PCSSO Recommendations – April 2010

      Status and timeline for completion: May 2011

Recommendation16.0: That PC/Ethiopia review its EAP and update any
information as necessary, and that it provide updates to the U.S. Embassy
annually.

      Concur: With the arrival of the first Environment Volunteers who will be placed in
      new and more rural sites, Post used this opportunity to update its Emergency Action
      Plan (EAP) to incorporate the new sites, the new consolidation points and the
      additional Volunteers issued satellite phones. The new EAP has also been
      distributed to RSO at the U.S. Embassy. Supporting documentation includes the
      newly revised EAP from November
      2010.
APPENDIX A

      Documents included:

              Emergency Action Plan (EAP) – November 2010

      Status and timeline for completion: completed November 2010


Recommendation 17.0: That the Office of Safety and Security assign a PCSSO to
complete a country risk assessment.

      Concur: Post has requested a PCSSO visit for Q2 and the Office of Safety
      and Security has confirmed the PCSSO’s availability.

      Documents included:
                 PCSSO Recommendations Tracking Sheet (Excel)
                 Approved PCSSO visit (email – Nov 22, 2010)

      Status and timeline for completion: end of Q2 2011

Recommendation 18.0: That the post coordinate with the Office of the Chief
Information Officer to pursue alternative Internet options to help PC/Ethiopia meet
minimum Internet bandwidth requirements.

      Partially Concur: OCIO has reviewed the situation and determined that Post is
      receiving the best connectivity given the currently available options. As new
      technology and different provider options emerge in Ethiopia, Post will continue to
      collaborate with the OCIO to find improved solutions.

      Documents included:
             Office of Chief Information Officer (OCIO) Assessment Results, Dated:
             November 2010

      Status and timeline for completion: completed November 2010

Recommendation 19.0: That Africa Region and Office of AIDS Relief coordinate to
provide guidance to address PC/Ethiopia’s PEPFAR funding scenario, including any
guidance necessary to finalize a transition plan for the use of PEPFAR funds while
maximizing the expenditure of carryover funds.

      Concur: Africa Region, OAR and Post confirm that the requested guidance has been
      provided and a detailed action plan is on-going and underway. The plan to address
      spending and use of PEPFAR funds was developed in conjunction with Africa
      Region, OAR and Post. Post, Region and OAR develop annual “roadmaps” to spend
      down these carryover funds. As such, a new or different plan from the existing
      agreed upon plan is unnecessary.
APPENDIX A

      PEPFAR funds can be used to enhance and grow any of post’s HIV/AIDS responses
      where resources and opportunity exists and supports the agency’s growth. While
      appropriated funds should support core Post functions, PEPFAR funds may be
      used on occasion to cover core functions specifically for entry/re-entry when
      addressing HIV/AIDS. Contributed PEPFAR funds should remain proportionate to
      Post’s work across all sectors.

      The “roadmap” (supporting documentation), comprises the following two
      action items:

      1. Post requested and received approval from OAR and the PEPFAR Country
         Team to decline new funds for PEPFAR COP 10 and instead apply USD
         $1,415,700 of its carryover funds towards COP 10 activities.

      2.    Post requested and received approval from OAR to fund additional
           activities critical for improving Volunteer support. These additional activities,
           which were not previously included in the PEPFAR budget, are:

                     Fully funding one of the Regional Volunteer Support Offices Funding a
                     10-day Volunteer perma-culture training and certification with these
                     certified Volunteers conducting training-of- trainers to the entire
                     Volunteer community
                 •   Fully funding all HIV/Health Volunteers (Previously, PEPFAR funds
                     were only approved to fund 75% of the HIV/Health Volunteers.)
                     Funding a second HIV/Health Program Assistant, and
                     Funding aUSPSC (or 3rd Country National) HIV/Health
                     Technical Trainer for the next Pre-Service Training in May 2011.

     Documents included:
          • PEPFAR IP 10-10-15 Approved
          • ET Narrative Revised 10-10-15 Approved
          • ET Revised Budget 10-10-15 Approved
          • Memo Requesting Approval to use PEPFAR funds
          • ET 10 PEPFAR IP 10-07-23 Final Approval
          • ET10 PEPFAR Timeline 10-07-20 Final Approval
          • ET10 Budget 10-07-20 Final Approval
          • ET10 OrgChart 10-07-20 Final Approval
          • ET10 PEPFAR Narrative 10-07-20 Final Approval
          • PEPFAR Implementation Plan – July 24 2010 (email)


      Status and timeline for completion: Complete and ongoing
APPENDIX B


                                   OIG COMMENTS

Management concurred with 12 recommendations, partially concurred with six
recommendations, and did not concur with one recommendation. Based on the documentation
provided, we closed six recommendations: numbers 5, 7, 8, 13, 14, and 18. In its response,
management described actions it is taking or intends to take to address the issues that prompted
each of our recommendations. Additionally, management has provided clarifications or has
updated information that is reflected in the final report. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions or that we
have reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities. However, when we feel it is warranted, we may conduct a follow-up review to
confirm that action has been taken and to evaluate the impact.

Thirteen recommendations, numbers 1, 2, 3, 4, 6, 9, 10, 11, 12, 15, 16, 17, and 19, remain open
pending confirmation from the chief compliance officer that the documentation reflected in the
OIG Analysis below is received. See Appendix A for agency’s response to the subject report.


1. That programming staff include host country government and project partners in
program advisory committee meetings with Volunteers and programming staff.

       Agency’s Response: Concur.

       OIG Analysis: To close this recommendation , please provide documentation
       demonstrating that host country government and project partners were included in the
       March 2011 PAC meeting for the Health sector or in other program advisory committee
       meetings.

2. That prior to its next trainee input, PC/Ethiopia secure an agreement with its health
sector partners which clearly states whether the post or its health partner assumes
responsibility for Volunteer housing.

       Agency Response: Partially Concur.

       OIG Analysis: In its response, the post indicated that, as collaboration progresses and
       strengthens and as resources become available, ministries and host partner organizations
       may end up bearing Volunteer housing cost in whole or part. It also related plans to
       approach the ministry of health in an attempt to update the HIV/Health Sector MOU in
       approximately two or three years’ time. To close this recommendation, please document
       the result of any future discussions with the ministry of health and partner organizations
       and other efforts to negotiate and secure their contribution toward Volunteer housing for
       that project sector.
APPENDIX B

3. That PC/Ethiopia negotiate and secure an agreement, which clearly states whether or
not environment and education partners are to provide Volunteer housing as a host
country contribution.

       Agency’s Response: Partially Concur.

       OIG Analysis: OIG recognizes the efforts made and progress post has achieved to date
       to address host partner housing responsibilities for its environment sector Volunteers.
       However, the post did not present a plan of action that addresses this recommendation for
       both the education and environment sectors. To close this recommendation, please
       document that discussions with the partner ministries include efforts to negotiate and
       secure host country contribution toward Volunteer housing for both project sectors.


4. That PC/Ethiopia include steps in its site development plan to better ensure that
counterparts understand their role in supporting the Volunteer and the Volunteers’ role in
the community.

       Agency’s Response: Concur.

       OIG Analysis: To close this recommendation, please provide post staff site visit notes
       from December 2010-January 2011 that detail steps taken during site development that more
       thoroughly address counterpart and Volunteer roles.


6. That the post provide additional English language training to host country staff so they
may more effectively respond to Volunteer support needs, or in the event of an emergency.

       Agency’s Response: Partially Concur.

       OIG Analysis: As we noted in our report, limited English proficiency of non-native
       English speaking staff may inhibit post’s response in an emergency and Volunteer
       support may suffer as a result of poor staff English speaking skills. To close
       recommendation six, please provide documentation showing an English tutor or
       alternative program was offered to non-native English speaking staff.


9. That the country director finalize the post’s process for responding to sexual assault
incidents.

       Agency’s Response: Concur.

       OIG Analysis: (Note: the final report and recommendation 9 have been updated to
       reflect agency policy and guidance.) Peace Corps’ Medical Technical Guideline 540 for
       Management of Sexual Assault includes guidance for conducting physical examinations
       of victims of sexual assault and for collecting forensic evidence useful during legal
APPENDIX B

      proceedings. Please document actions taken to confirm that the CD and PCMO are
      knowledgeable of and able to comply with the requirements of Technical Guideline 540.


10. That PC/Ethiopia identify and establish a reliable, real-time means of communication
with every Volunteer.

      Agency’s Response: Partially Concur.

      OIG Analysis: In our report, OIG noted additional communications options are
      necessary to ensure a reliable communications system is in place for all Volunteers and
      staff to transmit or receive information in case of an emergency. The post has indicated
      in its response that it will continue to assess and implement the latest communication
      technologies as they become available in the local market. Please provide the results of
      post’s annual testing of the adequacy and reliability of the in-country communication
      network and also document any efforts made to enhance communication systems.


11. That PC/Ethiopia work with the U.S. Embassy in Addis Ababa and pursue
authorization from the government of Ethiopia to use high frequency radio units as part of
its communications system.

      Agency’s Response: Do Not Concur.

      OIG Analysis: The agency did not concur with OIG’s recommendation and provided a
      rationale for not pursuing authorization from the host government to use high frequency
      radios. OIG acknowledges that nine Volunteers and five staff were provided satellite
      phones in an effort to establish a more robust backup communications system. However,
      the response to the recommendation did not offer a plan of action to fully address the
      underlying problem we identified. Please provide the results of post’s annual testing of
      the adequacy and reliability of the in-country communication network and also document
      any additional efforts made to enhance communication systems.


12. That the Office of Safety and Security work with Office of Global Operations and the
Africa Region to ensure that Volunteer safety and security recommendations made in prior
Peace Corps safety and security officer and internal management assessment reports are
addressed.

      Agency’s Response: Concur.

      OIG Analysis: OIG acknowledges post has and continues to implement Volunteer safety
      and security recommendations made by the PCSSO and made by the Internal
      Management Assessment (IMA) team in a November 2008 report. Please provide
      documentation that IMA and PCSSO recommendations have been closed.
APPENDIX B


15. That PC/Ethiopia test its emergency action plan annually to ensure that staff and
Volunteers are adequately trained to respond in case of emergency.

       Agency’s Response: Concur.

       OIG Analysis: The agency indicated its plans to provide OIG the results of its next
       PC/Ethiopia communications test, planned for May 2011. Please provide the results of
       post’s annual EAP test that demonstrates an effective combination of communications
       means is in place so that all Volunteers and staff may communicate in case of emergency.


16. That PC/Ethiopia review its emergency action plan and update any information as
necessary, and that it provide updates to the U.S. Embassy annually.

       Agency’s Response: Concur.

       OIG Analysis: Please provide examples of updates made to the EAP to include
       information for and about environment sector Volunteers and an update to the listing of
       local medical facilities in regions where Volunteers are placed. In addition, please
       provide evidence the updated EAP was provided to the embassy RSO.


17. That the Office of Safety and Security assign a Peace Corps safety and security officer
to complete a country risk assessment.

       Agency’s Response: Concur.

       OIG Analysis: Agency indicated the Office of Safety and Security confirmed the
       PCSSO’s availability to conduct a visit during the second quarter of fiscal year 2011.
       Please provide documentation reflecting that a country risk assessment was completed
       with the assistance of the PCSSO.


19. That Africa Region and Office of AIDS Relief coordinate to provide guidance to
address PC/Ethiopia’s President’s Emergency Plan for AIDS Relief (PEPFAR) funding
scenario, including any guidance necessary to finalize a transition plan for the use of
PEPFAR funds while maximizing the expenditure of carryover funds.

       Agency’s Response: Concur.

       OIG Analysis: OIG is encouraged that the agency has partially addressed this
       recommendation by developing a plan for expenditure of approximately $2m of its
       approximately $4.2m carryover. To close recommendation 19, please provide a detailed
       plan for the expenditure of the remaining carryover.
APPENDIX C



        COUNTRY PROGRAM EVALUATION COMPLETION
                   AND OIG CONTACT


EVALUATION       This country program evaluation was conducted under the
                 direction of Jim O’Keefe, Assistant Inspector General for
COMPLETION
                 Evaluations, and by Senior Evaluator April Thompson
                 Miller.




                 Jim O’Keefe
                 Assistant Inspector General for Evaluations


OIG CONTACT      Following issuance of the final report, a stakeholder
                 satisfaction survey will be distributed. If you wish to
                 comment on the quality or usefulness of this report to help
                 us improve our products, please e-mail Jim O’Keefe,
                 Assistant Inspector General for Evaluations, at
                 jokeefe@peacecorps.gov, or call (202) 692-2904.
            REPORT FRAUD, WASTE, ABUSE,
               AND MISMANAGEMENT

    Fraud, waste, abuse, and mismanagement in government affect
  everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and wasteful
     practices, fraud, and abuse related to Peace Corps operations
  domestically or abroad. You can report allegations to us in several
                 ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:             (800) 233-5874
               Washington Metro Area:         (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
